                                CLOSEOUT FOR M95050019

 d.         On A ril 1, 1995, OIG received a copy of an article written by the complainant, Dr.
                         The complainant had forwarded the letter in response to Dr.
                 request made during an earlier conversation with the complainant for further
information about his concerns. In his article the complainant described his unsuccessful
attempts to have a reviewer of his 1993 book                                   tract a statement in a
published review about the o                            in the book. The reviewer, ~r.-
I           a faculty member at th                                                             at the
universit-,                    apparently stated that this idea had already appeared in the published
literature. The complainant disagreed with this statement which he viewed as an "error in the
literature. "

        A review of NSF's proposal and award system showed that the complainant had never
 submitted a proposal to NSF and the reviewer's one award was too old to be applicable to this
 case. In addition, OIG noted that the complainant's concerns had been evaluated by numerous
 individuals in several separate organizations.

         After contacting the editor of the journal that published the review the complainant
 published a rejoinder to the review in that journal's forum for rebuttals. He discussed his
 concern with a variety of officers within the professional society that published the journal. AU
 of these individuals supported the reviewer's position. The complainant contacted a number of
 officials at the reviewer's institution and these individuals a l l supported the reviewer. He
 contacted the ethics committee within a leading scientific society that evaluated the situation as
 a "tempest in a teapot." The executive director of the society supported the committee's
 decision.

       OIG closed this inquiry without further consideration because the complainant's concerns
 were not related to any NSF-supported activity, and had been addressed in other forums.



 cc:     Staff scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                            Page 1 of 1
